                           Office of the Inspector General
                   Corporation for National and Community Service




                           Pre-Audit Survey Report of the
                              New Jersey Commission
                        on National and Community Service


                          OIG Audit Report Number 00-26
                                January 11,2000




                                        Prepared by:
                                  Urbach Kahn & Werlin, PC
                                  1030 Fifteenth Street, N.W.
                                   Washington, D.C. 20005

                              Under CNS OIG MOU # 98-046-5003
                                 With the Department of Labor
                                    Contract # J-9-G-8-0024
                                    Task Order B9G9X103


This report was issued to Corporation management on June 23,2000. Under the laws
and regulations governing audit follow up, the Corporation must make final
management decisions on the report's findings and recommendations no later than
December 20,2000, and complete its corrective actions by June 23,2001. Consequently,
the reported findings do not necessarily represent the final resolution of the issues
presented.
                                 Office of Inspector General                             CORPORATION
                       Corporation for National and Community Service                    FOR NATIONAL

                               Pre-Audit Survey of the
                                                                                          SERVICE
                New Jersey Commission on National and Community Service
                            OIG Audit Report Number 00-26


Introduction

The Corporation for National and Community Service, pursuant to the authority of the National and
Community Service Act, awards grants and cooperative agreements to state commissions, nonprofit
entities, tribes and territories to assist in the creation of fill and part time national and community
service programs. Currently, in accordance with the requirements of the Act, the Corporation awards
approximately two-thirds of its ArneriCorps Staternational h n d s to state commissions. The state
commissions in turn fund, and are responsible for the oversight of, subgrantees who execute the
programs. Through these subgrantees, ArneriCorps Members perform service to meet educational,
human, environmental, and public safety needs throughout the nation.

Thus, state commissions play an important role in the oversight of ArneriCorps programs and
expenditures. The Corporation has indicated that it intends to give them greater responsibility.
However, the Corporation lacks a management information system that maintains comprehensive
information on its grants including those to state commissions and subgrantees. Moreover, although
the Corporation began state commission administrative reviews in 1999, the Corporation,
historically, has not carried out a comprehensive, risk-based program for grantee financial and
programmatic oversight and monitoring. It is also unlikely that ArneriCorps programs are subject
to compliance testing as part of state-wide audits under the Single Audit Act due to their size relative
to other state programs.

Therefore, CNS OIG has initiated a series ofpre-audit surveys intended to provide basic information
on the state commissions' operations and funding. The surveys are designed to provide a
preliminary assessment of the commissions' pre-award and grant selection procedures, fiscal
administration, monitoring of subgrantees (including AmeriCorps Member activities and service
hour reporting), and the use of training and technical assistance funds. For each survey, we will
issue a report to the state commission and to the Corporation communicating the results and making
recommendations for improvement, as appropriate.

We engaged Urbach Kahn & Werlin PC to perform the pre-audit survey of the New Jersey
Commission on National and Community Service. UKW's report, whichfollows, concludes that the
Commission appears to have an open and competitive process to select national service subgrantees,
and that it's controls over training and technical assistance funding are adequate. On the other
hand, UKW found inadequacies in the Commission's monitoring processes including review of
subgrantee A-133 audits and site visit documentation. UKW also reports that, commencing with
the 1999program year, the New Jersey Commission established adequate controls over grantfiscal
administration. As a result of their work, UKW recommends an audit of CNS funding to the
Commission for all program years.
                                                                                      Inspector General
                                                                                      1201 New York Avenue, NW
                                                                                      Washington, OC 20525
We have reviewed the report and work papers supporting its conclusions, and we agree with the
findings and recommendations presented. We provided a draft of this report to the New Jersey
Commission and to the Corporation. In it's response (Appendix C), the Commission agrees with
most of the findings and cites planned corrective actions. The Corporation's response (Appendix
D) indicates that the Corporation plans to request semi-annual reports fiom the Commission on its
actions to correct the conditions reported and to follow-up on the corrective actions when the
Commission is reviewed during the Corporation's administrative review process.
                                     Office of the Inspector General
                             Corporation for National and Community Service

                                         Pre-Audit Survey Report of the
                                     New Jersey Commission on National and
                                              Community Service


                                                        Table of Contents


Pre-Audit Survey Report

  Results in Brief ...........................................................................................................................   1

  Background .................................................................................................................................   2

  Overview of the New Jersey Commission .................................................................................                        3

  Objectives, Scope and Methodology .......................................................................................... 3

  Findings and Recommendations .................................................................................................5


Appendices

  Appendix A - New Jersey Commission Funding - 1995 through 1999 ..................................10

  Appendix B - Detailed Engagement Objectives and Methodology .........................................15

  Appendix C - New Jersey Commission Response ....................................................................18

  Appendix D - Corporation Response ........................................................................................2 1
U h Urbach Kahn & Werlin PC
6;\XI   CERTIFIED PUBLIC ACCOUNTANTS



          Inspector General
          Corporation for National and Community Service

          At your request, Urbach Kahn and Werlin PC performed a pre-audit survey of the New
          Jersey Commission on National and Community Service. The primary purpose of this survey
          was to provide a preliminary assessment of:

                 the adequacy of the pre-award selection process;

                 the fiscal procedures at the Commission;

                 the effectiveness of monitoring New Jersey State subgrantees, including AmeriCorps
                 Member activities and service hours; and

                 the controls over the provision of training and technical assistance.

          We were also asked to report on the recommended scope of additional audit procedures to be
          performed at the New Jersey Commission.

          RESULTS IN BRIEF

          Based on the results of the limited procedures performed, we have made the following
          preliminary assessments regarding the Commission's systems for administering grants
          received from the Corporation.

             The Commission appears to have an open and competitive process to select national
             service subgrantees, and related systems and controls appear to be functioning as
             designed.

             Commencing in the 1999 program year, the Commission appears to have adequate
             controls in place for the fiscal administration of grants.

              The Commission does not have adequate controls in place to evaluate and monitor
              subgrantees.

              The Commission appears to have adequate controls in place to provide reasonable
              assurance that training and technical assistance are made available and provided to
              subgrantees.




                                                               - 1-
                        1030 Fifteenth Street NW, Washington, DC 20005 (202) 296-2020 FAX (202) 223-8488
                                      A n Independent Member of Urbach Hacker Young lnternatlonal
Based on our preliminary assessments, we recommend that the OIG perform a program
specific financial audit of the funds awarded to the New Jersey Commission for 1995 through
the current program year. Procedures should also include verification of reported Member
service hours, as well as verification of information provided to the Corporation by
subgrantees in Progress Reports.

In addition, we recommend that the Corporation follow up with the Commission to determine
that appropriate corrective actions are put into place to address the conditions reported herein
and that the Corporation consider these conditions in its oversight and monitoring of the New
Jersey Commission.

BACKGROUND

The National and Community Service Trust Act of 1993, P.L. 103-82, which amended the
National and Community Service Act of 1990, established the Corporation for National and
Community Service.

The Corporation, pursuant to the authority of the Act, awards grants and cooperative
agreements to State Commissions, nonprofit entities, and tribes and territories to assist in the
creation of full and part time national and community service programs. Through these
grantees, AmeriCorps Members perform service to meet the educational, human,
environmental, and public safety needs throughout the nation, especially addressing those
needs related to poverty. In return for this service, eligible Members may receive a living
allowance and post-service educational benefits.

Currently, the Corporation awards approximately two-thirds of its AmeriCorps
State/National funds to State Commissions. State Commissions are required to include
between 15 and 25 voting members. Each Commission has a responsibility to develop and
communicate a vision and ethic of service throughout the State.

The State Commissions provide AmeriCorps funding to approved subgrantees for service
programs within their states and are responsible for monitoring these subgrantees'
compliance with grant requirements. The State Commissions are also responsible for
providing training and technical assistance to AmeriCorps State and National Direct
programs and to the broader network of service programs throughout the state. The
Commissions are prohibited from directly operating national service programs.

The Corporation's regulations describe standards for financial management systems that must
be maintained by State Commissions. The standards require, in part, that the State
Commissions maintain internal controls that provide for accurate, current, and complete
disclosure of the financial and programmatic results of financially assisted activities, as well
as provide effective control and accountability for all grant and subgrant cash, real and
personal property, and other assets.
0 VERVIEW OF THE NEW JERSEY COMMISSION

The New Jersey Commission on National and Community Service is headquartered in
Trenton, New Jersey. The Commission has been providing national and community service
programs in its current form since 1995. The Commission reported that it received funding
from the Corporation totaling $5,815,581 in 1995; $5,869,016 in 1996; $5,275,540 in 1997;
$4,794,822 in 1998; and $5,145,509 in 1999. Additional information on the Commission's
funding is presented in Appendix A.

The Commission currently has four full-time staff consisting of an Executive Director, an
ArneriCorps Program Officer, a Fiscal Assistant, and an Administrative staff person. The
Commission's ArneriCorps Program Officer monitors subgrantee program and fiscal
activities.

As part of the State of New Jersey, the Commission is included in the state's annual OMB
Circular A-133 audit. There have been no questioned costs or findings identified at the
Commission to date. However, it has not been considered or tested as a major program.

The Commission provided the following information regarding subgrantee audits:

                   Total Amount of                                   Number of
                     Corporation                                 Subgrantees Subject
                        Funds             Number of                To A-133 Audit
Propram Year         Subgranted          Submantees                Requirements




*   The Commission was unable to provide us with this information because, as discussed in
    greater detail in the monitoring section of this report, the Commission does not maintain
    records to document subgrantees compliance with OMB Circular A-1 33 requirements.

OBJECTIVES, SCOPE AND METHODOLOGY

We were engaged by the Office of the Inspector General for the Corporation for National and
Community Service to provide an assessment of the systems and procedures in place at the
Commission for administering grants and for monitoring the fiscal activity of subgrantees.

The primary purpose of this survey was to provide a preliminary assessment of:

        the adequacy of the pre-award selection process;
       the fiscal procedures at the Commission;

       the effectiveness of monitoring of New Jersey State subgrantees, including
       ArneriCorps Member activities and service hours; and

       the controls over the provision of training and technical assistance.

We were also asked to report on the recommended scope of additional audit procedures to be
performed at the New Jersey Commission.

Our survey included the following procedures:

       reviewing Corporation laws, regulations, grant provisions, the Reference Manual for
       Commission Executive Directors and Members, and other information to gain an
       understanding of legal, statutory and programmatic requirements;

       reviewing OMB Circular A-133 audit reports and current program year grant
       agreements for the Commission;

       obtaining information from Commission management to complete flowcharts
       documenting the hierarchy of Corporation grant funding for program years 1995
       through 1999; and

       performing the procedures detailed in Appendix B, in connection with the
       Commission's internal controls, selection of subgrantees, administration of grant
       funds, evaluation and monitoring of grants, and technical assistance process.

As part of the procedures performed, we documented and tested certain internal controls in
place at the Commission using inquiry, observation, and examination of a sample of source
documents. Finally, we summarized our observations and developed the findings and
recommendations presented in this report. We discussed all findings with Commission
management during an exit conference on January 11,2000.

Our procedures were performed in accordance with Government Auditing Standards issued
by the Comptroller General of the United States. We were not engaged to, and did not
perform an audit of any financial statements, and the procedures described above are not
sufficient to express an opinion on the controls at the Commission or its compliance with
applicable laws, regulations, contracts and grants. Accordingly, we do not express an opinion
on any such financial statements or on the Commission's controls and compliance. Had we
performed additional procedures, other matters might have come to our attention that would
have been reported to you.

We provided a draft of this report to the New Jersey Commission and the Corporation for
National and Community Service. The Commission's and the Corporation's responses to our
findings and recommendations are included as Appendix C and Appendix D, respectively.
FINDINGS AND RE COMMENDA TIONS

Selection of Subgrantees

According to A Reference Manual for Commission Executive Directors and Members,
Section 3.2, "Commissions are expected to develop a fair and impartial process for reviewing
and selecting applicants for potential funding." The New Jersey Commission has developed
various procedures to comply with this responsibility.

The New Jersey Commission has established a contract with the Bureau of Development and
Discretionary Grants to select subgrantees. After the initial Request for Proposal is
distributed, the Commission forwards a list of potential grant evaluators to the Bureau. The
Bureau uses this list to select the individuals who will evaluate potential subgrantees. This
panel consists of three individuals: one from the office through which the grant will be
administered, one from a different office within the Department of Education, and one reader
external to the Department of Education who is knowledgeable in the content area.

Proposals are evaluated on the basis of quality, comprehensiveness, completeness, accuracy
and appropriateness of responses given to questions included in the Proposal Instructions and
Selection Criteria section of the Request for Proposal. To be eligible for funding, a proposal
must receive a ranking above a pre-determined amount.

Once the Bureau has selected subgrantees for funding, the proposals are then reviewed by the
New Jersey Commission, as well as by the Corporation for National and Community Service.

Renewal applicants are required to demonstrate that they have accomplished significant
progress towards the implementation of their comprehensive multi-year plan and whether the
proposed budget appears reasonable to achieve the goals of the program.

Based on the result of our testing, the Commission appears to maintain adequate
documentation to support the selection process, however, we identified the following area for
improvement.

                Lack of assessment of subgrantee applicants 'financial
                         systems during the selection process

According to A Reference Manual for Commission Executive Directors and Members,
Section 4.2, Commissions are responsible for maintaining "appropriate financial management
systems to disburse funds and track Commission and program expenditures according to
legal and grant requirements." In order to comply with this requirement, the Commission
must be able to ensure that subgrantees have systems in place to accurately track
expenditures, since this information forms the basis of a majority of Commission expenditure
reporting.
During our testing, we determined that selection officials do not consider the adequacy of the
applicants' financial systems during the Commission's subgrantee selection process. The
grant application form provided by the Corporation does not specifically address the
applicant's financial systems. In addition, Commission selection procedures do not require
Commission personnel to request information from the applicants related to their financial
systems or to otherwise assess an applicant's financial system because the Commission
believes the majority of subgrantees are covered under state audits. As a result, grant funds
may be provided to an organization that does not have financial systems in place to properly
account for the Corporation funds received or to ensure compliance with related
requirements.

We recommend the Commission evaluate and document the adequacy of the applicants'
financial systems during the selection process to ensure applicants have systems in place to
properly account for grant funds and comply with related grant requirements.

Administration of Grant Funds

As part of the grant administration process, "Commissions must evaluate whether
subgrantees comply with legal, reporting, financial management and grant requirements and
ensure follow through on issues of non-compliance" ( A Reference Manual for Commission
Executive Directors and Members, Section 4.3).

The Commission presently appears to have an adequate process in place for the fiscal
administration of grants. Subgrantees in the State of New Jersey are required to submit State
Expenditure Reports along with Financial Status Reports. SERs require subgrantees account
for all funds expended during the period. Currently, the Commission uses the SERs as
reconciling tools, during its review of the FSRs. All variances are investigated to determine
reconciling amounts. Commission personnel also examine matching percentages during this
review. Once Commission personnel verify all information on FSRs submitted by
subgrantees, a consolidated FSR is prepared. The Office of Budget and Accounting then
breaks down this FSR by category to ensure costs incurred appear reasonable. The FSR is
then sent to the Commission for approval before it is sent to the Corporation.

During our testing, Commission personnel informed us that the Commission resubmitted
FSRs to the Corporation for the 1994 through 1997 program years. The Executive Director
stated that prior to 1997, the person responsible for preparing the FSRs submitted to the
Corporation, was not comparing subgrantee to the FSRs. As a result, incorrect FSRs were
submitted by subgrantees, resulting in the Commission submitting inaccurate FSRs to the
Corporation.

                     Inability to determine timeliness of receipt of FSR

The Commission does not routinely date-stamp FSR reports fiom subgrantees as they are
received. Thus, the Commission cannot routinely verify whether these documents are
submitted timely in compliance with the grant agreement. As a result, subgrantee FSRs may
not be submitted in accordance with Corporation requirements; however, the Commission
has no basis to verify the FSRs' receipt date.

During December 1999, the Commission began using the Web-Based Reporting System
which electronically records the date subgrantees submit their FSRs to the Commission. As a
result, no recommendation is required at this time related to recording the date of the receipt
of FSRs.

Evaluation and Monitoring of Subgrantees

As discussed above, the Commission is responsible for evaluating whether subgrantees
comply with legal, reporting, financial management and grant requirements and to ensure it
follows through on issues of noncompliance.

We identified the following areas for improvement related to the evaluation and monitoring
of subgrantees.

               Documentation of subgrantees site visits needs to be improved.

According to OMB Circular No. A-133, Audit of States, Local Governments, and Non-ProJit
Organizations, as amended, Subpart D 5 400 (d)(3) pass through entities are required to
"Monitor the activities of subrecipients as necessary to ensure that Federal awards are used
for authorized purposes in compliance with laws, regulations, and the provisions of contracts
or grant agreements and that performance goals are achieved." In addition, 5 400 (d)(4)
requires that pass through entities "ensure that subrecipients expending $300,000 or more in
Federal awards during the subrecipient's fiscal year have met the audit requirements of this
part for that fiscal year."

The Commission's procedures require annual site visits. During our review of monitoring
files for subgrantees, we determined that certain information was not included in the site visit
documentation. Specifically, the names of the Member files reviewed, identification of
Member files where exceptions were noted, and procedures followed to select Member files
reviewed were not included. In addition, comments included on the checklists were general
in nature. Therefore, we were unable to reperform or otherwise review the monitoring
procedures performed by New Jersey Commission personnel.

We recommend that the Commission revise written policies and procedures requiring
specific information be included in the documentation for site visits (for example, sample
sizes, exceptions, recommendations, and follow up on findings and recommendations). This
will allow the Corporation to assess the Commission's oversight of subgrantees when it
performs its planned Commission administrative reviews.
In addition, we recommend that the Corporation for National and Community Service revise
its guidance to specify minimum procedures to be performed, as well as minimum
documentation requirements.

           Lack of documentation of review of OMB Circular A-133 Reports or
                         other audit reports from subgrantees

As discussed in the previous finding, OMB Circular No. A-133, Audit of States, Local
Governments, and Non-Profit Organizations, as amended, Subpart D 5 400 (d)(3) requires
that pass through entities "Monitor the activities of subrecipients as necessary to ensure that
Federal awards are used for authorized purposes in compliance with laws, regulations, and
the provisions of contracts or grant agreements and that performance goals are achieved." In
addition, 5 400(d)(4) requires that pass through entities "ensure that subrecipients expending
$300,000 or more in Federal awards during the subrecipient's fiscal year have met the audit
requirements of this part for that fiscal year."

Commission procedures require AmeriCorps subgrantees retain copies of their A-133 audit
reports on site. However, the fiscal monitoring checklist only requires Commission personnel
inquire about the existence of the most current audit report. The Commission does not
maintain documentation to support the results of the audits or discussion of any findings and
recommendations and the Commission was unable to provide us with information on which
subgrantees fall under OMB Circular A-133 requirements and whether they had, in fact,
audits as required.

Therefore, we are unable to determine if auditors have identified control weaknesses or
instances of noncompliance related to the AmeriCorps program. In its failure to review and
consider audit results, the Commission ignores information helpful in carrying out its
oversight and monitoring responsibilities.

Therefore, we recommend the Commission establish policies and procedures requiring that
its staff identify subgrantees required to have audits under Circular A-133, review subgrantee
A-1 33 audit reports and that the results of the review be documented.

Providing Technical Assistance

Annually, the Commission receives grant funds to provide technical assistance to its
subgrantees. Procedures are in place at the Commission to (1) identify training needs of
subgrantees through periodic staff meetings with the program directors and a needs
assessment survey; (2) notify subgrantees of training programs; and (3) provide needed
training to subgrantees. We identified no significant areas for improvement within this
process.
This report is intended solely for the information and use of the Office of the Inspector
General, management of the Corporation for National and Community Service, the New
Jersey Commission on National and Community Service, and the United States Congress and
is not intended to be and should not be used by anyone other than these specified parties.




Washington, DC
January 11,2000
APPENDIX A - NEW JERSEY COMMISSION FUNDING




                                      CORPORATION FOR NATIONAL SERVICE
                                  FUNDING TO THE NEW JERSEY STATE COMMISSION
                                                      1995




              AMERICORPS
                                             1
                                      AMERICORPS
                                                                    1
                                                                PDAT FUNDS
                                                                                 -
                                                                                     ADMINISTRATION
                                                                                         FUNDS
            FORMULA FUNDS             COMPETITIVE                 $90,000
               $1,460,805               FUNDS                                           $233,531
                                       $4,031,245
                                                                    NO
                 MATCH                  MATCH                     MATCH                 MATCH
                 $407,233              $1,343,711                REQUIRED               $150,000




                                             v                      v
                                  TOTAL CNS FUNDS AVAILABLE TO THE COMMISSION
                                                   $5,815,581




                                                      t
                                        FUNDS AWARDED TO SUBGRANTEES
                                                  $5,492,050




                                                                   AMERlCORPS
                                     FORMULA                       COMPETITIVE
                                     $1,460,805                     $4,031,245

                                       MATCH                          MATCH
                                      $407,233                      $1,343,711

                                     TOTAL # OF                     TOTAL # OF

                                         7

                                     TOTAL # OF                     TOTAL # OF
                                       SITES                          SITES




   ...   No carryovers for 1995
APPENDIX A - NEW JERSEY COMMISSION FUNDING




                                                        CORPORATION FOR NATIONAL SERVICE
                                                   FUNDING TO THE NEW JERSEY STATE COMMISSION
                                                                       1996


                                                          I
                                                                                                          -       -
                                                                                                          ADMINISTRATION ./L
                     AMERICORPS                     AMERICORPS
                      FORMULA                       COMPETITIVE                                            FUNDS
                 I     FUNDS                          FUNDS                                                $322.818
                                                     $3,344,578

                      MATCH                            MATCH.                            MATCH             MATCH
                      $867,069                        $1,603,193                        REQUIRED           $148,667




                                                     TOTAL CNS FUNDS AVAILABLE TO THE COMMISSION
                                                                      $5,869,016




                                                                             1
                                                              FUNDSAWARDEDTOSUBGRANTEES
                                                                       $5,431,106




                                               r'    AMERICORPS
                                                      FORMULA:
                                                      $2,086,528

                                                        MATCH
                                                       $867,069
                                                                                           AMERICORPS
                                                                                           COMPETITIVE.
                                                                                            $3,344,578

                                                                                              MATCH
                                                                                             $1,603,193

                                               1      TOTAL. OF
                                                        SUBS
                                                                                            TOTAL If OF
                                                                                              SUBS
                                                                                                3




                                               I   TOTAL # OF SITES                          TOTAL #
                                                                                             OF SITES
                                                          36                                       13




   Total Carryovers for 1996 (Not included In the current yearfundtng amounts above):

   PDAT               $      2,500
   ArnerlCorps        $    154,671
   Admin              $     70,875
APPENDIX A - NEW JERSEY COMMISSION FUNDING




                                                          CORPORATION FOR NATIONAL SERVICE
                                                      FUNDING TO THE NEW JERSEY STATE COMMISSION
                                                                          1997



                    1
            AMERICORPS
                                                             1
                                                       AMERICORPS
                                                                                        1
                                                                                PDAT FUNDS
                                                                                                 -         1
                                                                                                     ADMINISTRATION
          FORMULA FUNDS                                COMPETITIVE                $120,000              FUNDS."
             $2,001,528                                  FUNDS                                          $381,018
                                                        $2,772,994
                                                                                    NO
                MATCH                                     MATCH                   MATCH                  MATCH
                                                         $1,556,423              REQUIRED               $144,441
                $987,380




                                                             Y                          v
                                                  TOTAL CNS FUNDS AVAILABLE TO THE COMMISSION
                                                                   $5,275,540




                                                            FUNDS AWARDED TO SUBGRANTEES
                                                                      $4,774,522




                                                       I AMERICORPS

                                                          FORMULA
                                                          $2,001,528
                                                                                       AMERICORPS
                                                                                       COMPETITIVE



                                                           MATCH                         MATCH:
                                                           $987,380                     $1,556,423

                                                       TOTAL # OF SUBS            TOTAL # OF SUBS
                                                               8                            2

                                                       TOTAL # OF SITES           rOTAL # OF SITES
                                                              36                         13




   Total Carlyovers for 1997 (Not ~ncludedIn the current year fundlng amounts above)

   Adrnin & PDAT          $      74,424


   ^'   D ~ s a b ~ lfunds
                      ~ t y lncluded In grant award
APPENDIX A




   PDAT
   AmerCorps
   D~sab~l~ty.


   "
                       $
                       $
                       $
                             16,292
                            463,691
                             89,604

       Dlsabihty mcluded In grant award
                                              .
                      - NEW JERSEY COMMISSION FUNDING




                                                  CORPORATION FOR NATIONAL SERVICE
                                              FUNDING TO THE NEW JERSEY STATE COMMISSION




                                                 AMERICORPS
                                                  FORMULA
                                                  $2,102,527

                                                   MATCH
                                                  $1,030,581

                                                  TOTAL # OF
                                                    SUBS
                                                        9

                                                  TOTAL # OF
                                                    SITES




       According to the Executwe Director, the Comrn~ss~on
                                                                  1998




                                             TOTAL CNS FUNDS AVAILABLE TO THE COMMISSION
                                                              $4,794,822




                                                     FUNDS AWARDED TO SUBGRANTEES
                                                               $3,922,524




                                                                                 COMPETITIVE
                                                                                  $1,819,997




                                                                               l-2-I
   Total Carryovers for 1998 (Not included In the current year funding amounts above).
                                                                                         SITES.




                                                        was allocated funds dur~ng1998, however, the program dld not start until January 2000
APPENDIX A - NEW JERSEY COMMISSION FUNDING




            ---   -




   .
                                                CORPORATION FOR NATIONAL SERVICE
                                            FUNDING TO THE NEW JERSEY STATE COMMISSION
                                                                1999



                                                  f                                            L
                                                                                               ADMINISTRATION             PROMISE
     AMERICORPS                                   4MERICA READS
      FORMULA                 COMPETITIVE                 FUNDS'            $144,800                 FUNDS               FELLOWSHIP
       FUNDS                    FUNDS                    $352.800                                   $31 1,686              FUNDS
      $2,048,491               $2,221,232                                                                                  $66,500

        MATCH                   MATCH                    MATCH-              MATCH                   MATCH                   MATCH
       $1,020,502              $1,133,562                  $"               REQUIRED                $311,691




                                            TOTAL CNS FUNDS AVAILABLE TO THE COMMISSION
                                                             $5,145,509




                                                   FUNDS AWARDED TO SUBGRANTEES
                                                             $4,269,723




                                                   1
                                              AMERICORPS
                                                                                  A
                                                                                  AMERICORPS
                                               FORMULA                             COMPETITIVE.
                                               $2,048,491                           $2,221,232

                                                MATCH                                 MATCH
                                               $1,020,502                            $1,133,562

                                               TOTAL # OF                            TOTAL # OF
                                                 SUBS:                                 SUBS
                                                   9                                     3

                                               TOTAL # OF                            TOTAL # OF
                                                 SITES                                 SITES.
                                                    36                                   11




     No carryovers for 1999
   " Accord~ngto the Executive Director, the Comm~ss~on
                                                     was allocated funds during 1999, however, the program did not begin until January 2000
APPENDIX B - DETAILED ENGAGEMENT OBJECTIVES AND METHODOLOGY


Internal Controls

Our objective was to make a preliminary survey of the Commission's financial systems and
documentation maintained by the Commission to provide reasonable assurance that
transactions are properly recorded and accounted for to: (1) permit the preparation of reliable
financial statements and Federal reports; (2) maintain accountability over assets; and (3)
demonstrate compliance with laws, regulations, and other compliance requirements.

In order to achieve the above objectives, we interviewed key Commission personnel to
determine the adequacy of the Commission's internal controls surrounding the following to
ensure compliance with Part 6 of A-133, Internal Control of the Compliance Supplement to
OMB Circular A-133, Audits of States, Local Governments, and Non-ProJit Organizations:
overall control environment; activities allowed or unallowed and allowable costs; cash
management; eligibility; equipment and real property management; matching; period of
availability of Corporation funds; procurement and suspension, debarment; program income;
and reporting by the Commission to the Corporation.

Selection of Subgrantees

Our objectives were to:

       conduct a preliminary survey of the systems and controls utilized by the Commission
       to select national service subgrantees to be included in any application to the
       Corporation;

       make a preliminary assessment as to whether the Commission assessed the adequacy
       of potential subgrantee financial systems and controls in place to administer a Federal
       grant program prior to making the award to the subgrantees; and

       make a preliminary assessment as to whether the Commission involvement in the
       application process involved any actual or apparent conflict of interest.

In order to achieve the above objectives, we interviewed key Commission management and
documented procedures performed by the Commission during the pre-award financial and
programmatic risk assessment of potential subgrantees. We also reviewed documentation to
ensure that conflict of interest forms for each subgrantee applicant tested were signed by all
peer review members annually and maintained by the Commission.
APPENDIX B - DETAILED ENGAGEMENT OBJECTIVES AND METHODOLOGY


Administration of Grant Funds

Our objectives were to:

       conduct a preliminary survey of the systems and controls utilized by the Commission
       to oversee and monitor the performance and progress of funded subgrantees;

       make a preliminary assessment as to whether the Commission's organizational
       structure and staffing level and skill mix is conducive to effective grant
       administration and whether the commission has a properly constituted membership;

       make a preliminary assessment as to whether the Commission provided adequate
       guidance to subgrantees related to maintenance of financial systems, records,
       supporting documentation, and reporting of subgrantee activity;

       conduct a preliminary survey of financial systems and documentation maintained by
       the Commission to support oversight of subgrantees and required reporting to the
       Corporation (including Financial Status reports, enrollment and exit forms); and

       make a preliminary assessment as to what procedures the Commission has in place to
       verify the accuracy and timeliness of reports submitted by the subgrantees.

In order to achieve the above objectives, we reviewed Financial Status Reports submitted by
subgrantees, as well as Financial Status Reports submitted by the Commission to the
Corporation, to determine the accuracy of submitted Financial Status Reports. We also
determined whether the Commission has implemented the Web Based Reporting System.

Evaluation and Monitoring of Subgrantees

Our objectives were to:

       conduct a preliminary survey of the systems and controls utilized by the Commission,
       in conjunction with the Corporation, to implement a comprehensive, non-duplicative
       evaluation and monitoring process for their subgrantees;

       make a preliminary assessment as to whether the Commission has a subgrantee site
       visit program in place and assess the effectiveness of its design in achieving
       monitoring objectives;

       conduct a preliminary survey of the Commission's procedures used to assess
       subgrantee compliance with Corporation regulations (e.g., those governing eligibility
       of Members, service hour reporting, prohibited activities, payment of living
APPENDIX B - DETAILED ENGAGEMENT OBJECTIVES AND METHODOLOGY


       allowances to Members and allowability of costs incurred and claimed under the
       grants by subgrantees (including reported match));

       conduct a preliminary survey of the Commission's procedures for obtaining,
       reviewing and following up on findings included in the subgrantee single audit
       reports, where applicable;

       determine whether program goals are established and results are accurately reported
       and compared to these goals; and

       conduct a preliminary survey of the procedures in place to evaluate whether
       subgrantees are achieving their intended purpose.

In order to achieve the above objectives, we documented the procedures performed by the
Commission to evaluate and monitor individual subgrantees. In addition, we judgmentally
selected subgrantees and obtained the Commission's documentation for site visits. We
reviewed the documentation to determine the adequacy of the procedures performed by the
Commission to assess financial and programmatic compliance and related controls at the
sites. We also determined whether the Commission received and reviewed A-133 audit
reports from subgrantees.

Providing Technical Assistance

Our objectives were to:

       conduct a preliminary survey of the systems and controls utilized by the Commissions
       to provide technical assistance to subgrantees and other entities in planning programs,
       applying for funds, and implementing and operating programs;

       make a preliminary assessment as to whether a process is in place to identify training
       and technical assistance needs; and

       make a preliminary assessment as to whether adequate training and technical
       assistance is provided to identified subgrantees.

In order to achieve the above objectives, we documented the procedures performed by the
Commission to identify and satisfy training needs for the subgrantees and Commission
employees. We also obtained a summary of all training costs incurred during the current year
to ensure they properly related to training activities which were made available to all
subgrantees.
APPENDIX C - NEW JERSEY COMMISSION RESPONSE




                                                DEPARTMENT
                                                       OF EDUCATION
                                                         PO Box 500
                                                    TRENPDN,
                                                           NJ08625-0500
  C m m TODDW ~ A N
   Governor

        May 19,2000


        Ms. Luise S. Jordan, Inspector General
        Corporation for National Service
        Office of Inspector General
        1201 New York Avenue, NW
        Washington, D.C. 20525

         Ms. Jordan:

         SUBJECT:      Drafi Report on the O1G's Pre-Audit Survey of the New Jersey Commission on
                       National and Community Service

         The New Jersey Department of Education (DOE) has received and reviewed the findings and
         recommendations of the above-mentioned pre-audit survey. Our responses are as follows:

         Finding Number 1

         Selection of Subgrantess - Lack of assessment of subgrantee applicant's financial systems during
         selection process.

         Recommendation Number 1

         The Commission should evaluate and document the adequacy of the applicant's financial
         systems during the selection process to ensure appiicants have systems in piace to properiy
         account for grant funds and comply with related grant requirements.

         Departmental Response

         We do not agree with the recommendation that each applicant's financial system should be
         evaluated and documented. However, following the selection of the subgrantees to be awarded
         grant funds and also subject to the availability of resources, we will consider performing pre-
         award surveys of those agencies that have not been previously funded by the New Jersey
         Department of Education to ensure adequate financial systems are in place.




                       New JmyIs An Equal Opportunity Employer Printed a Recycled and Recyclable Paper
APPENDIX C     - NEW JERSEY COMMISSION RESPONSE




     Ms. Luise S. Jordan
     Page 2
     May 19,2000


     Finding Number 2

     Administration of Grant Funds - Inability to determine timeliness of receipt of FSR.

     Recommendation Number 2

     No recommendation.

     Departmental Response

     Since no recommendation is noted relating to recording the date of the receipt of FSRs, no
     further action by the Commission is warranted.

     Finding Number 3

     Evaluation and Monitoring of Subgrantees - Documentation of subgrantees site visits needs to
     be improved.

     Recommendation Number 3

     The Commission should revise written policies and procedures requiring specific information to
     be included in the documentation for site visits.

     Departmental Response

     We agree with the finding. Commission management has notified their staff of revisions to
     policies and procedures requiring specific information to be included in the documentation for
     site visits (see Attachment A).

     Findine Number 4

     Evaluation and Monitoring of Subgrantees - Lack of documentation of review of OMB Circular
     A-1 33 Reports or other audit reports from subgrantees.

      Recommendation Number 4

      The Commission should establish policies and procedures requiring that its staff identify
      subgrantees required to have audits under Circular A-133, review subgrantee A-133 audit reports
      and that the results of the review should be documented.
APPENDIX C - NEW JERSEY COMMISSION RESPONSE




     Ms. Luise S. Jordan
     Page 3
     May 19,2000


     Departmental Response

     We agree with the finding. The Commission has implemented procedures whereby subgrantees
     required to have audits under Circular A-133 are identified, subgrantee audit reports are
     reviewed during monitorings and the results of these reviews are documented.

     We trust that our responses satisfy the concerns raised in the report. Should you have any
     questionfor need additional information, please contact me at (609) 984-5593.

      Sincerely,


      ~
      -&
       .$7
      Thomas J. King, Director
      Ofice of Compliance


      TJK/Americorps Response
      c:   David C. Hespe
           John Sherry
           Steve Blaustein
           Rowena Madden
           Barbara Breeden
           Susan Martz
           Marti DeYoung
APPENDIX D - CORPORATION RESPONSE



                                                            CORPORATION

                                                            FOR N A T I O N A L
              MEMORANDUM
                                                             SERVICE
              TO:                Luise S. Jordan               <

              THRU:              Anthony       MUSK^
                                                4'-
              FROM:
                                 Bruce H. Cline

              DATE:              May I 1,2000

              SUBJECT:           Response to the Draft Audit Report 00-26 Pre-Audit Survey of the
                                 New Jersey Commission on National and Community Service



              We have reviewed the draft report on your pre-audit survey of the New Jersey
              Commission on National and Community Service. Given the nature of the report, this
              response serves as our proposed management decision. We note that your preliminary
              assessment recommends a program specific financial audit at the Commission for 1995
              through the current program year. The draft audit report includes a recommendation to
              the Corporation. We are providing the following response to that recommendation. The
              Inspector General recommended:

                        "Additionally, we (the Inspector General) recommend that the Corporation follow
                        up with the Commission to determine that appropriate corrective actions are put
                        into place to address the conditions reported herein, and that the Corporation
                        consider these conditions in its oversight and monitoring of the New Jersey
                        Commission."

               Some of the conditions cited in the "results in brief' section of the report include
               concerns related to the lack of adequate controls in place to evaluate and monitor
               subgrantees.

               Given our limited program administration resources, we developed a plan to assess State
               Commission administration functions. Over a three-year period, we will be reviewing
               each of the state commissions. As part of our follow-up with New Jersey, we will
               determine whether the Commission has put appropriate corrective actions in place for
               conditions noted in the pre-audit survey that your office has issued.

               In addition to this scheduled review, we will also request that the New Jersey
               Commission provide semi-annual reports on their actions to correct conditions cited in
               the OIG pre-audit survey.




     NATIONAL SERVICE: GETTING THINGS DONE                                  1201 New York Avenue, N.W.   Washington, D.C. 20525
     A-cmps     .   Learn andSrmPAmerica   .
                                           NaliadSenior S~nAcecmp           telephone 202-6&-5000      wehh:m , n a t i o n ~ e ~ c r . o q
